<html>
<title> - EXAMINING THE GOVERNMENT'S RECORD ON IMPLEMENTING THE INTERNATIONAL RELIGIOUS FREEDOM ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
  EXAMINING THE GOVERNMENT'S RECORD ON IMPLEMENTING THE INTERNATIONAL 
                         RELIGIOUS FREEDOM ACT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2013

                               __________

                           Serial No. 113-41

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
82-139                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e087908fa08395939488858c90ce838f8dce">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 13, 2013....................................     1
Ms. Katrina Lantos Swett, Ph.D., Chair, U.S. Commission on 
  International Religious Freedom
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Thomas F. Farr, Ph.D.,Director of the Religious Freedom 
  Project, Berkley Center for Religion, Peace, and World Affairs, 
  Georgetown University
    Oral Statement...............................................    22
    Written Statement............................................    25
Ms. Tina Ramirez, President, Hardwired, Inc.
    Oral Statement...............................................    35
    Written Statement............................................    38
Mr. Amjad Mahmood Khan, Esq., Assistant National Director of 
  Public Affairs, Ahmadiyya Muslim Community USA and A Vice 
  President of the Ahmadiyya Muslim Lawyers Association USA
    Oral Statement...............................................    47
    Written Statement............................................    50
Mr. Chris Seiple Ph.D, President, Institute for Global Engagement
    Oral Statement...............................................    55
    Written Statement............................................    58

                                APPENDIX

The Hon. Jason Chaffetz, a Member of Congress from the State of 
  Utah, Opening Statement........................................    82


  EXAMINING THE GOVERNMENT'S RECORD ON IMPLEMENTING THE INTERNATIONAL 
                         RELIGIOUS FREEDOM ACT

                              ----------                              


                        Thursday, June 13, 2013,

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Lummis, Mica, Duncan, 
Gowdy, Woodall, Bentivolio, Issa, Lynch, Speier, and Kelly.
    Also Present: Representative Lankford.
    Staff Present: Brien A. Beattie, Majority Professional 
Staff Member; Molly Boyl, Majority Senior Counsel and 
Parliamentarian; Caitlin Carroll, Majority Deputy Press 
Secretary; Sharon Casey, Majority Senior Assistant Clerk; John 
Cuaderes, Majority Deputy Staff Director; Adam P. Fromm, 
Majority Director of Member Services and Committee Operations; 
Linda Good, Majority Chief Clerk; Mark D. Marin, Majority 
Director of Oversight; Laura L. Rush, Majority Deputy Chief 
Clerk; Scott Schmidt, Majority Deputy Director of Digital 
Strategy; Jaron Bourke, Minority Director of Administration; 
Devon Hill, Minority Research Assistant; Adam Koshkin, Minority 
Research Assistant; and Safiya Simmons, Minority Press 
Secretary.
    Mr. Chaffetz. Thank you. The committee will come to order. 
I would like to begin this hearing by stating the Oversight 
Committee mission statement.
    We exist to secure two fundamental principles: first, 
Americans have a right to know that the money Washington takes 
from them is well spent and, second, Americans deserve an 
efficient, effective Government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their Government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    Good morning, and I thank everybody in attendance here to 
talk about this hearing's topic, which is Examining the 
Government's Record of Implementing the International Religious 
Freedom Act. Now, unfortunately, as you look at this panel, we 
have some very distinguished people who have done some great 
work in this field, who are great experts and care passionately 
about this issue.
    At the same time, we are sincerely disappointed that the 
State Department decided not to make their witness available. 
Ambassador Cook was invited to attend. We think this would have 
been a valuable part of the dialogue. On May 30th, 31st, the 
very end of the month, State Department confirmed verbally that 
the Ambassador at Large for International Religious Freedom, 
again, Ambassador Suzan Johnson Cook, would be available to 
testify at the June 13th hearing.
    Based on that, we sent a letter to Secretary Kerry, on June 
5th, requesting the ambassador's testimony at the hearing. When 
we confirmed that I would insist on a one panel structure, 
State withdrew the ambassador from the hearing, citing what 
they claim is a longstanding State policy of not permitting 
their witnesses to testify on the same panel as non-government 
witnesses.
    Although the U.S. Commission on Religious Freedom also 
raised concern about having Chairwoman Katrina Lantos Swett on 
the same panel as non-government witnesses, we still requested 
that we have one panel. We believe it is a more effective, 
efficient way to conduct a hearing; it allows members of 
Congress to ask pertinent questions. And to suggest that we 
have to have two panels, as opposed to one panel, seems a 
ridiculous use of the Congress' time and efforts. So they have 
made this choice.
    But I do want to highlight that on October 7th, 2012, the 
ambassador sat on a panel again with Chairwoman Swett and an 
Italian professor. In fact, here is a picture of the two of 
them sitting next to each other on the panel. And just because 
it is the United States Congress they decide that they can't 
sit and testify and talk about issues next to each other. It is 
obviously the practice of the State Department to do this.
    In fact, Transportation and Infrastructure Subcommittee on 
Coast Guard and Maritime Transportation hearing on combating 
privacy, on April 10th, 2013, Assistant Secretary of State for 
Political Military Affairs Andrew Shapiro testified on the same 
panel as Mr. Neil Smith, the head of underwriting for Lloyds 
Market Association, a private concern in London.
    So it is obviously the practice of the State Department to 
allow their State Department employees to testify with private 
sector people on the same panel. They have done it in Congress; 
they have done it in private settings. But somehow, before the 
Oversight Committee, they are electing not to make their 
witness available.
    Consequently, I don't believe that this will be as full of 
a hearing as it could possibly be. It will be a better 
discussion. This should not be contentious. But there are 
issues that we need to address as the United States Congress. 
This is terribly disappointing. It is a waste of the Congress' 
time. And when we know that she was available to attend, to not 
make that witness here available today is just inexcusable.
    With that, I will yield to the ranking member, Mr. Lynch, 
from Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses who are here for your 
cooperation and willingness to help the committee with its 
work.
    Let me take the procedural issue first, the one that the 
chairman has illuminated for us.
    If I could just amplify, in defense of the Secretary of 
State, this has been a practice for a long, long time. I 
remember when I was the chair of the subcommittee on this 
committee and I was trying to consolidate the hearing to make 
it more effective and efficient. I tried, myself, to get Bush 
administration officials to come in; they insisted on the 
identical protocol, which is that the executive branch agencies 
and representatives would testify separately.
    Some of the agencies refused to sit alongside union 
officials who were called to testify because of the adversarial 
nature of those positions. There was also the fear that there 
would be crossfire, which is entertaining for us, but 
uncomfortable for the executive branch. So this protocol has 
been in place for a long, long time. So let me defend the 
Secretary of State and also the Administration for continuing 
this practice that has been in practice for a long, long time. 
It is frustrating, but sometimes that is how democracy is, and 
hopefully at some point we will be able to at least get some 
cooperation on matters that are non-adversarial, which I think 
this hearing qualifies.
    Thank you, Mr. Chairman. Congress passed the International 
Religious Freedom Act in 1998 to establish international 
freedom as a key objective of U.S. foreign policy. The bill 
passed with widespread bipartisan support. A GAO report issued 
in March on the implementation of the bill found that the Act 
was largely implemented faithfully and properly.
    The Office of International Religious Freedom, which 
operates within the Department of State and is headed by the 
Ambassador at Large, assists the Secretary of State with 
promoting religious freedom and designating certain countries 
that fail to do so as countries of particular concern. The 
Independent Commission on International Religious Freedom 
conducts reviews of violations of religious freedom and 
publishes an annual report, among other duties.
    The GAO did, however, point out two problems that have 
diminished the impact of the promotion of international 
religious freedom since 1999: first, GAO noted that the 
Ambassador at Large for International Religious Freedom has 
always had a lower organizational status within the State 
Department than other ambassadors at large. Despite the State 
Department's own guidelines stating that the Ambassador at 
Large outranks the assistant secretaries, in practice, however, 
the Ambassador at Large for International Religious Freedom 
reports to the Assistant Secretary for Democracy, Human Rights 
and Labor. This was true when the position was created in 1999; 
it has persisted through the Bush Administration and continues 
to this day.
    Secondly, GAO found that the International Religious 
Freedom Act failed to define how State and the Commission on 
International Freedom should interact, leading at times to 
unnecessary tensions within foreign governments. These 
challenges have also existed under multiple administrations, 
secretaries of state, and ambassadors.
    As Dr. Lantos Swett states in her written testimony, 
neither Republican nor Democratic administrations have fully 
utilized IRFA as the key foreign policy tool as it was intended 
to be. This is unfortunate and we can do better. Every human 
being has the right to freedom and of the freedom from 
religion, and ensuring these rights are upheld and protected 
worldwide should be a key component to American foreign policy.
    With that, I yield back the balance of my time.
    Mr. Lankford. [Presiding.] Well, thank you and good 
morning. I am going to make a quick opening statement as well, 
and then we will move straight on to your statements also.
    Religious freedom, as we know well, is a core American 
value. It is often referred to as our first freedom because of 
its prominent place at the beginning of our Constitution, the 
First Amendment. But religious freedom isn't just an American 
value; it is also recognized around the world as a fundamental 
human right codified in the Universal Declaration of Human 
Rights.
    Religious freedom is about more than just religious 
beliefs; it is about an individual freedom of conscience, that 
is, the right to believe or not to believe whatever one 
chooses, without fear of retribution from those who disagree. 
That is something every American, religious or otherwise, 
should care about. It is an indispensable cornerstone of 
democracy, liberty, and social harmony. A particular government 
society is intolerant of minority religious belief, there is a 
pretty good chance it will be equally intolerant of other 
beliefs that may not fit the norm, whether in politics, 
economics, or science.
    Religious freedom, therefore, should be a nonnegotiable 
tenet of life in our modern world. Yet violations of religious 
freedom are all too common in the world today. As we speak, 
untold millions of people face discrimination, prison, torture, 
and even death for no other reason other than they hold on to a 
religious belief that is different from their fellow citizens, 
their government, or both.
    That is why, in 1998, Congress passed the International 
Religious Freedom Act. Congress' intent was to elevate the 
status of religious freedom in the halls of the American 
foreign policy rhetorically and institutionally. The Act 
created a new International Religious Freedom Office within the 
State Department and a new ambassador at large to lead it. It 
also created the Independent U.S. Commission on Religious 
Freedom to work cooperatively with the State Department in 
order to advance the cause of religious freedom around the 
world.
    One of the functions of this subcommittee and of the 
Oversight and Government Reform Committee as a whole is to make 
the Government work more efficiently and effectively. That 
means we aren't just interested in hearing about how many 
reports the Government has produced or how many meetings it has 
held. Rather, we want to hear about outcomes that the 
Government has achieved. Have the institutions' policies and 
procedures put in place as a result of the International 
Religious Freedom Act actually resulted in more religious 
freedom? In other words, is this working?
    Unfortunately, the available data is not encouraging. 
According to a study by the Pew Research Center, 75 percent of 
the world's population lives under high or very high levels of 
religious restrictions, up from 68 percent in 2007. Thirty-
seven percent of the countries in the world place high or very 
high restrictions on religion, up from 29 percent over the same 
period. This data indicates we are moving in the wrong 
direction, something confirmed by just watching or reading the 
news.
    Equally discouraging is the apparent lack of substantive 
action by the State Department to champion religious freedom 
abroad. According to a recent GAO study, the Ambassador at 
Large, who Congress intended to be the Secretary's principal 
advisor in religious freedom, reports to a mid-level official 
in the State Department, many levels below the Secretary. The 
Secretary has not made any designation of countries of 
particular concern for violations of religious freedom since 
2011, despite the fact that the Act requires it annually and 
billions of U.S. dollars and U.S. taxpayer funds continue to 
flow each year to countries that routinely and egregiously 
violate religious freedom and human rights.
    Would any of us be surprised to learn that other countries 
no longer take seriously when we condemn particular violations 
of religious freedom?
    Now, I do understand the State Department has to balance a 
lot of competing national interests, but what I cannot 
understand is how standing up for a core value like religious 
freedom should not be at the top of the priority list. This is 
all the more true in a time when we are locked in a struggle 
against religious extremism and violence. It is not a 
coincidence that the most dangerous extremist movements today 
have emerged from countries with the worst records on religious 
freedom.
    I expect we will hear more from our witnesses today about 
the important link between promoting religious freedom and 
combating religious extremism. I hope that our discussion today 
will give us a better idea of what progress we have made in 
those 15 years since the passage of the IRFA, and I look 
forward to hearing from our distinguished witnesses.
    Mr. Lankford. Now let me get a chance to be able to 
introduce our distinguished witnesses, and any other members 
that would like to make an opening statement can submit that 
for the record and will have seven days to do that.
    On our panel today, Dr. Katrina Lantos Swett is the Chair 
of the United States Commission on International Religious 
Freedom and President and CEO of the Lantos Foundation for 
Human Rights. For those who don't know, Dr. Swett is the 
daughter of the late beloved Congressional icon, the Honorable 
Tom Lantos.
    I also want to follow up on what Mr. Chaffetz said, as 
well, and note that unlike the State Department, the Commission 
on Religious Freedom graciously agreed to appear on a panel 
with other non-governmental witnesses, and we do thank you for 
being here today.
    Dr. Thomas Farr is the Director of Religious Freedom 
Project, the program on religious and U.S. foreign policy at 
Georgetown's Berkley Center for Religion, Peace, and World 
Affairs. Dr. Farr has served in both the U.S. Army and the 
Foreign Service. As an Army officer he taught history at West 
Point and served as Adjutant General of the Army's 
Transportation Command in Europe. He has served as the first 
director of the State Department's Office of International 
Religious Freedom starting on 1999. Thanks for being here.
    Ms. Tina Ramirez is the President and Founder of Hardwired, 
Incorporated, a nonprofit organization dedicated to advancing 
religious freedom law and policy worldwide. She most recently 
served as Director of International and Government Relations 
for The Becket Fund for Religious Liberty and helped found the 
International Religious Freedom Caucus here in the House of 
Representatives. Thank you for being here.
    Mr. Mahmood Amjad is the Assistant National Director of 
Public Affairs for the Ahmadiyya Muslim Community and Vice 
President of the Ahmadiyya Muslim Lawyers Association in the 
United States. He also works as a litigation associate for a 
prominent D.C. law firm. Thank you for being here.
    Dr. Chris Seiple is the President of the Institute for 
Global Engagement, a research education diplomatic institution 
that builds sustainable religious freedom worldwide through 
local partnerships. A former Marine infantry officer, Dr. 
Seiple's last posting was to the Pentagon, where he was a 
member of the Strategic Initiatives Group, an internal think 
tank for the commandant of the Marine Corps.
    I also want to acknowledge the presence of Tom Lantos' 
widow here today. We are honored to have you here today. You 
are always welcome.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you would please stand and raise your 
right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you, God?
    [Witnesses respond in the affirmative.]
    Mr. Lankford. Thank you.
    Let the record reflect all witnesses answered in the 
affirmative.
    You may be seated.
    In order to allow time for discussion, we would ask you to 
limit your testimony to five minutes. If any of you have not 
testified before, the basic ground rules are there is a little 
clock in front of you. There are also lights that are green, 
yellow, red. That is a pretty good sign. Green means go; red 
means stop.
    You will have about five minutes. If you go a couple 
seconds over, I am quite sure we will give mercy. Of all places 
we would demonstrate mercy, it would be in a conversation about 
religious freedom. But we would like you to be as close as you 
can to that time period to allow time for conversation and 
questions.
    Dr. Swett, we will recognize you first.

                       WITNESS STATEMENTS

            STATEMENT OF KATRINA LANTOS SWETT, PH.D.

    Ms. Lantos Swett. Thank you so much. I am delighted to be 
here. Before I begin my formal testimony, I just want to say 
that it is both a privilege to appear before this committee, a 
privilege to appear with these distinguished colleagues, and I 
want to give a particular hello to Congresswoman Speier. We 
have known each other as friends for many decades and you are 
doing such an admirable job following my late father's 
footsteps. So it is really a delight to be here with you as 
well.
    Thank you all, members of this committee, for holding this 
hearing, and I do request that the balance of my testimony, the 
written testimony, be submitted for the record.
    Mr. Lankford. Without objection.
    Ms. Lantos Swett. Religious freedom is a pivotal human 
right affirmed by our Nation and international treaties and 
obligations. It is also crucial to our security and the 
world's, especially the post-9/11 world. Simply stated, 
religious freedom abuses often trigger violent religious 
extremism, including terrorism, and many governments, including 
those that top our foreign policy and security agendas, either 
perpetrate or tolerate such abuses.
    I hope my testimony helps underscore the importance of 
promoting religious freedom and utilizing the tools that the 
International Religious Freedom Act, IRFA, provides. By using 
these tools, and, frankly, I believe they have never been fully 
used, the U.S., both the executive branch and Congress, can 
encourage respect for this right and address factors driving 
religious repression and extremism.
    In October 1998, IRFA became law due to concerns about 
religious persecution worldwide and the perception that 
religious freedom was a neglected human right. IRFA includes 
three mechanisms that monitor religious persecution abroad: an 
Ambassador at Large for International Religious Freedom within 
the State Department; a bipartisan and independent USCIRF, of 
which I serve as chair; and a country of particular concern, 
CPC, designation for nations engaged in or tolerating 
systematic, ongoing, and egregious violations.
    IRFA created USCIRF as an independent, bipartisan body 
distinct from the State Department to monitor religious freedom 
worldwide and make policy recommendations to the President, 
Secretary of State, and Congress. Far from duplicating the 
State Department's work, USCIRF's independence allows it to 
speak publicly and, may I say, more freely about violations and 
recommend U.S. engagement.
    One of USCIRF's chief responsibilities is to recommend to 
the State Department countries it should designate as CPCs for 
their systematic, ongoing, and egregious abuses. In its 2013 
report, USCIRF recommended that the State Department 
redesignate the following countries as CPCs: Burma, China, 
Eritrea, Iran, North Korea, Saudi Arabia, Sudan, and 
Uzbekistan; and found that seven others also meet the CPC 
threshold and should be so designated by State: Egypt, Iraq, 
Nigeria, Pakistan, Tajikistan, Turkmenistan, and Vietnam.
    Unfortunately, neither Republican nor Democratic 
administrations have designated CPCs in a timely manner, and 
they generally have imposed preexisting sanctions, not unique 
actions. The Bush Administration issued several designations in 
its first term, but allowed the process to fall off track in 
its second; and the Obama Administration issued designations 
only once during its first term.
    Under IRFA, countries remain designated until removed, but 
any corresponding penalties expire after two years. The 
countries currently designated were named in August of 2011. 
Given the two-year life span of any CPC-associated sanctions, 
we urge that the presidential actions not expire this August, 
as they will if no action is taken.
    We continue to believe that when combined with the prospect 
of sanctions or other actions, CPC designations can move 
repressive governments to undertake critical changes. 
Unfortunately, the State Department has issued indefinite 
waivers on taking any action against two currently designated 
CPCs, Uzbekistan and Saudi Arabia. And by relying on 
preexisting sanctions, such double-hatting, in effect, provides 
little incentive for CPC designees to reduce or cease 
violations.
    My written testimony includes other recommendations in 
accordance with IRFA. They include, as you have suggested, 
giving the Ambassador at Large direct access to the President 
and Secretary of State; creating and filling a director level 
religious freedom position at the National Security Council; 
the Secretary of State compiling a list of prisoners persecuted 
abroad on account of their faith; the President identifying 
officials responsible for religious freedom abuses and, where 
appropriate, publishing their names in the Federal Register; 
and our diplomats receiving training to promote religious 
freedom abroad. While such training now is voluntary, it should 
be mandatory for diplomats, as well as relevant members of the 
military.
    Because we, of all people, know what happens when religious 
extremism is exported as terrorism, USCIRF urges our Government 
to prioritize religious freedom not only as a core human right, 
but a vital part of any security-driven counter-extremism 
strategy.
    And I believe I might have exceeded my time already, so I 
will defer the rest of my oral testimony, but look forward to 
touching on those things that I wasn't able to in our 
discourse.
    [Prepared statement of Ms. Lantos Swett follows:]

    [GRAPHIC] [TIFF OMITTED] T2139.001
    
    [GRAPHIC] [TIFF OMITTED] T2139.002
    
    [GRAPHIC] [TIFF OMITTED] T2139.003
    
    [GRAPHIC] [TIFF OMITTED] T2139.004
    
    [GRAPHIC] [TIFF OMITTED] T2139.005
    
    [GRAPHIC] [TIFF OMITTED] T2139.006
    
    [GRAPHIC] [TIFF OMITTED] T2139.007
    
    [GRAPHIC] [TIFF OMITTED] T2139.008
    
    [GRAPHIC] [TIFF OMITTED] T2139.009
    
    [GRAPHIC] [TIFF OMITTED] T2139.010
    
    [GRAPHIC] [TIFF OMITTED] T2139.011
    
    [GRAPHIC] [TIFF OMITTED] T2139.012
    
    [GRAPHIC] [TIFF OMITTED] T2139.013
    
    Mr. Lankford. Thank you, Doctor.
    Ms. Lantos Swett. Thank you very much.
    Mr. Lankford. Dr. Farr.

               STATEMENT OF THOMAS F. FARR, PH.D.

    Mr. Farr. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for calling this important hearing and 
giving me the opportunity to speak.
    This is the first and only congressional oversight hearing 
on the operation of the IRFA since its passage in 1998. I 
applaud you for taking this on. Let me add, however, that it is 
very unfortunate that the Administration has decided that this 
hearing is not important enough to send a representative. As 
you will see, I consider this unfortunately symptomatic of the 
Administration's view of international religious freedom 
policy.
    I want to address four questions this morning: Why do we 
have an international religious freedom policy? How are we 
doing? What explains our shortcomings? And how can we improve?
    Let me begin by giving you two rationales for IRFA. First, 
advancing religious freedom is the right thing to do. Studies 
by the Pew Research Center show that unjust restrictions on 
religious individuals and groups, as well as violent 
persecution, have steadily increased in recent years. The 
results have been catastrophic for millions of human beings in 
many societies. This tragedy provides a clear moral and 
humanitarian basis for U.S. policy.
    But, second, advancing international religious freedom can 
increase America's national security. There are approximately 
70 countries where restrictions on religion are severe. That 
list of countries includes virtually all the nations whose 
internal stability, economic policies, and foreign policies are 
of vital concern to the United States, including Iran, China, 
Syria, Iraq, Afghanistan, Pakistan, and Egypt.
    Increasing religious freedom in these countries can 
undermine religion-related violence and terrorism, promote 
economic growth, and help democracy to route and remain stable. 
If the United States could move these nations toward religious 
freedom, we would be helping the victims of persecution and 
increasing our national security at the same time.
    Mr. Chairman, the Pew studies strongly suggest an answer to 
the second question concerning the effectiveness of U.S. 
policy. Notwithstanding the hard creative work of the State 
Department's Office of International Religious Freedom, it 
would be difficult to name a single country in the world over 
the last 15 years where American religious freedom policy has 
helped to reduce religious persecution or to increase religious 
freedom in any substantial or sustained way.
    In fact, the Pew reports make it clear that in most of the 
countries where the United States has poured blood, treasure, 
and diplomatic resources, levels of religious freedom are 
declining and religious persecution is rising.
    So what is the explanation for this ineffectiveness? Let me 
give you two. First, the anemic, largely rhetorical methodology 
employed by all three administrations under which IRFA has 
operated; second, a loss of conviction among policymakers that 
religious freedom is the first freedom. None of the 
administrations responsible for IRFA has adopted a robust view 
of the policy mandated by the law; each has assumed a narrow, 
highly rhetorical approach characterized by reports, speeches, 
lists of severe persecutors that have little effect, and a 
State Department activity known as raising the issue, which 
should not be confused with solving the problem.
    IRFA has driven some internal progress at State, but there 
is no comprehensive U.S. strategy in place to advance religious 
freedom in the Muslim world or elsewhere. While Congress 
appropriates millions of dollars annually for democracy and 
counterterrorism programs, little of that money is spent on 
promoting religious liberty.
    Let me name three obstacles to a robust religious freedom 
policy in the Department. First, the annual reports are good, 
but they are mostly descriptive narratives, largely unconnected 
to strategies or programs. They cannot and do not, by 
themselves, reduce persecution or advance freedom.
    Second, U.S. diplomats are not trained to know why 
religious freedom is important and how to advance it. The 
Department has begun a training program on religion and foreign 
policy, where I have been honored to teach, but it remains 
voluntary, ad hoc, and weak on religious freedom.
    Third, all of the ambassadors at large for religious 
freedom have been and remain isolated within the State 
Department and severely under-resourced. Given these and other 
problems, it is hardly surprising that neither U.S. diplomats 
nor foreign governments see religious freedom as a priority for 
the United States.
    So why have three administrations failed to make this 
policy a priority? The overarching explanation, in my view, is 
that a significant proportion of our officials no longer 
believe that religious freedom is the first freedom. For 
America's founding generation and most generations since, 
religious freedom was believed necessary for the well-being of 
all individuals and societies.
    In particular, religion in the public square was considered 
crucial for the health of democracy. Many of our foreign policy 
leaders today, however, see religious freedom as a private 
matter, with few legitimate public purposes. For some, 
religious liberty is in no sense necessary to individuals and 
societies; rather, it is merely one in an ever growing list of 
rights claims, in this case a claim of privilege by religious 
people that must be balanced against all other such claims.
    Such views are reflected in domestic positions taken by the 
Obama Administration, but also in its foreign policy. In a 2009 
speech, Secretary of State Clinton insisted that ``to fulfill 
their potential, people must be free to worship and to love in 
the way that they choose.'' Note that Secretary Clinton evokes 
the freedom to worship, not religious freedom.
    But worship is essentially a private activity, with few, if 
any, civic or public policy implications. She implies that a 
right to love is a comparable right. The Obama Administration 
has weighed religious freedom against other right claims it 
believes important, such as the right to contraceptives and 
abortifacients or to same sex marriage, and has found religious 
freedom to be an inferior right.
    This helps to explain why, in its foreign policy, the 
Administration has applied far more energy in its international 
pursuit of a right to love than it has religious freedom. It 
also helps to explain why our religious freedom policy is weak 
and under-resourced.
    Let me close quickly with five amendments I would propose 
to the IRFA that would remove some of the internal obstacles to 
a more effective religious freedom policy.
    First, mandate that the Ambassador at Large report directly 
to the Secretary of State.
    Second, give the Ambassador the resources he or she needs 
to develop strategies for key countries around the globe. This 
need not, and I want all of you to hear this, please, involve 
the appropriation of new monies, but the allocation of existing 
appropriations for programs such as democracy promotion and 
counterterrorism.
    Third, make training of American diplomats mandatory at 
three stages: first, when they enter the foreign service; 
second, when they receive area studies training, prior to 
departing for post; and, third, when they become deputy chiefs 
of mission and ambassadors.
    Fourth, require the State Department issue the list of 
countries of concern annually, along with a comprehensive 
analysis of all the policy tools applied in each of these 
countries, including programs that target democratic stability, 
economic growth, and counterterrorism.
    Finally, require the Department to respond in writing to 
the U.S. Commission on International Religious Freedom to their 
recommendations. At the same time, require the Commission to 
pay greater attention to why the United States is not 
succeeding in advancing religious freedom.
    Thank you for having me here today.
    [Prepared statement of Mr. Farr follows:]

    [GRAPHIC] [TIFF OMITTED] T2139.014
    
    [GRAPHIC] [TIFF OMITTED] T2139.015
    
    [GRAPHIC] [TIFF OMITTED] T2139.016
    
    [GRAPHIC] [TIFF OMITTED] T2139.017
    
    [GRAPHIC] [TIFF OMITTED] T2139.018
    
    [GRAPHIC] [TIFF OMITTED] T2139.019
    
    [GRAPHIC] [TIFF OMITTED] T2139.020
    
    [GRAPHIC] [TIFF OMITTED] T2139.021
    
    [GRAPHIC] [TIFF OMITTED] T2139.022
    
    [GRAPHIC] [TIFF OMITTED] T2139.023
    
    Mr. Chaffetz. [Remarks made off microphone.]

                   STATEMENT OF TINA RAMIREZ

    Ms. Ramirez. Mr. Chairman and members of the committee, 
thank you for allowing me the opportunity to come before you 
today and provide this testimony. I would like to ask that my 
full statement be submitted for the record.
    Mr. Lankford. Without objection.
    Ms. Ramirez. The question before the committee today is 
whether the U.S. Government has been effective in implementing 
the International Religious Freedom Act of 1998 and, if not, 
then what has happened to American leadership and what can be 
done to strengthen it.
    To respond to the first part of this question, one thing is 
absolutely clear: religious freedom has more often than not, as 
you have heard today, been treated as an annoying thorn in our 
side, something we are obligated to address out of duty rather 
than genuine concern. We fail to recognize that violations of 
religious freedom are a symptom of a deeper cancer that must be 
addressed for human freedom and rights-based societies to 
flourish. This has been true of every administration since 
1998, as has been noted.
    So what has happened to American leadership on 
international religious freedom? In highlighting the situation 
of the current administration, it is important to begin by 
recognizing some positive steps that have been taken: the 
President raised the persecution of Rohingya Muslims recently 
with the Burmese president; Secretary Kerry condemned anti-
Semitic remarks by the Turkish prime minister; and the State 
Department worked to defeat the Defamation of Religions 
Resolution at the United Nations. Important steps.
    However, unfortunately, other actions and policies 
inconsistent have given religious freedom advocates, foreign 
governments, and the general public the impression that 
religious freedom is simply a low priority for our Government. 
For instance, the delayed appointment of the current Ambassador 
at Large, two and a half years into the first term of the 
President; the Ambassador's demoted rank; the Administration's 
calls to negotiate with state sponsors of terrorism, coupled 
with the failure to respond quickly and decisively when 
peaceful protesters in Iran, Egypt, and Syria look for 
international support; providing support to opposition groups 
in Syria, but not opposition groups in Burma, even though 
ethnic cleaning and genocide are occurring there; the recent 
waiving of conditions on aid to Egypt and the persistent 
national security waivers for Saudi Arabia; the infrequent 
discussion of religious freedom in meetings between the 
President and foreign governments, such as in recent visits 
with the Turkish prime minister or the Chinese president, in 
Turkey, in particular, the absence is well noted with the 
situation today; the consideration by the State Department to 
ease visa restrictions despite requirements in IRFA that they 
not do that for people that have been involved in egregious 
violations of religious freedom. They have been considering 
easing visa restrictions on Narenda Modi, chief minister of 
Gujarat State, who is responsible for the egregious persecution 
of Muslims there and more recently has invited a delegation of 
top Sudanese officials, led by presidential advisor Nafi ali 
Nafie, also known as the Butcher of Sudan, to the White House; 
and, of course, the failure to designate any countries of 
particular concern since 2011.
    In addition to this list, one can note the comments by my 
colleague, Tom Farr, related to the absolute absence of any 
concern for religious freedom by State Department officials.
    Despite the best intentions, as religious persecution 
continues to worsen each year, with 5.1 billion people living 
under egregious persecution, it seems that the policy is simply 
not working. Therefore, what can be done to strengthen American 
leadership on this issue?
    An effective U.S. religious freedom policy requires both 
presidential leadership and implementation by the State 
Department and other officials. I have highlighted 
implementation in the current administration, but the problems 
I raise reflect a deeper problem of how this raise is 
perceived, which must be addressed universally throughout 
Government. Religious freedom is not just about religious 
people; it is a right of conscience for people of all faiths 
and none; it is a freedom for those suffering from religious 
oppression as well as religious persecution; it protects an 
individual's beliefs, whatever those beliefs may be; and it 
protects them from being forced to adopt beliefs that 
contradict their conscience; it is the first thing often to go, 
as you have noted, when autocratic governments want to oppress 
their citizens and silence dissenters, minority communities or 
those they consider undesirable elements of society, as we have 
seen throughout history.
    Because religious freedom provides a foundation for the 
conscience of a nation that undergirds every human right, 
dismissing it in our foreign policy is simply shortsighted. 
This is why, when the U.S. Government issues waivers for 
countries that violate religious freedom, it is sending a mixed 
message. Essentially, despite the fact that religious freedom 
can't be suspended under international law, it is a non-
dirigible human right, we are inadvertently saying that we 
believe it is a negotiable right when it comes to our national 
interests. This is a problem.
    Therefore, without a comprehensive, strategic, and 
consistent policy, brutal regimes will slide back into their 
old habits and instability will increase worldwide. Outdated 
policies and responses will simply not work with today's 
challenges. Taking the time to develop a strong offensive and 
proactive policy is difficult, but it will save us money and 
diplomatic energy in the long run because it will help build 
more stable rights-based societies that reduce the need for 
international interventions.
    This is why, in 2007, I worked with Congressman Frank Wolf 
to secure the first funding designated for religious freedom 
programming, which, although mandated under IRFA, had never 
been implemented for 10 years. I also found that there were no 
required training programs in religious freedom for foreign 
service officers in the Diplomatic Corps, as provided under 
IRFA, so we tried to work to do something on that. Of course, 
as Tom has noted, it is still in process at the State 
Department.
    There are two policies that I think are important for the 
U.S. Government to consider right now, and I have listed a 
number of them in my formal testimony that you can see. The two 
that I would like to highlight are, number one, the U.N. 
Special Rapporteur for International Religious Freedom, our key 
ally in this fight, has been understaffed and resourced at the 
U.N. So the main person internationally that should be working 
with us to actually change policy is not even being supported 
by the United Nations. For an organization that we support 
substantially fiscally, that should be remedied. And the U.N., 
because they are supposed to be such a champion of religious 
freedom and human rights, why don't we call on them to issue a 
decade for religious freedom and see what they actually will 
do?
    Thank you.
    [Prepared statement of Ms. Ramirez follows:]

    [GRAPHIC] [TIFF OMITTED] T2139.024
    
    [GRAPHIC] [TIFF OMITTED] T2139.025
    
    [GRAPHIC] [TIFF OMITTED] T2139.026
    
    [GRAPHIC] [TIFF OMITTED] T2139.027
    
    [GRAPHIC] [TIFF OMITTED] T2139.028
    
    [GRAPHIC] [TIFF OMITTED] T2139.029
    
    [GRAPHIC] [TIFF OMITTED] T2139.030
    
    [GRAPHIC] [TIFF OMITTED] T2139.031
    
    [GRAPHIC] [TIFF OMITTED] T2139.032
    
    Mr. Chaffetz. Mr. Amjad?

                STATEMENT OF AMJAD MAHMOOD KHAN

    Mr. amjad. Mr. Chairman, members of the subcommittee, thank 
you for inviting me to testify here today before this 
committee. I want to, first of all, convey the regrets of Amjad 
Khan, who was supposed to be here originally and could not make 
it because of travel difficulties. I also want to specially 
recognize Congresswoman Speier, who has been a long-time friend 
of our community. I also want to request permission from the 
committee to submit the full extent of our remarks for the 
record.
    Mr. Lankford. Absolutely. Without objection.
    Mr. Amjad. Thank you.
    So I will make three main points today. First, I will 
discuss the strengths of the International Religious Freedom 
Act and the ways in which it has benefitted out community; 
second, I will touch upon the Act's key role in enhancing 
national security; and, finally, I want to discuss a few of the 
ways in which the Act can be made even more effective.
    Before I delve into these points, allow me to very briefly 
introduce our community to you. The Ahmadiyya Muslim Community 
is a revivalist movement within Islam that espouses the motto 
of love for all, hatred for none. As a central tenet of its 
faith, the community rejects violence and terrorism for any and 
all reason. When violent extremists label their acts of 
terrorism as jihad, it is the Ahmadiyya Muslim Community that 
is usually first and most forceful in its denunciation, 
focusing on both conveying true Islamic teachings to Muslims 
around the world, as well as removing misconceptions of Islam 
in the West. Today, our community is established in more than 
200 countries and its tens of millions of adherents will follow 
the only spiritual caliph in the Muslim world, His Holiness 
Mirza Masroor Ahmad, who resides in London.
    Our community is arguably the most persecuted Muslim 
community in the world, as has been recognized by the U.S. 
State Department, the U.S. Commission on International 
Religious Freedom, and dozens of human rights non-governmental 
organizations.
    Over the past decade, hundreds of Ahmadi Muslims have been 
murdered in Pakistan, and dozens more in other countries around 
the world. Indeed, in 2010 alone, 99 Ahmadi Muslims were 
murdered in Pakistan, the deadliest year ever for the 
community. In Pakistan, our community is declared to be non-
Muslim by constitutional amendment and is effectively barred 
from participating in national elections, such as the one that 
took place last month to elect a new government.
    It is clear, then, that the International Religious Freedom 
Act is a critical piece of legislation for our community, which 
brings me to my first main point: how the IRFA has helped our 
community and its strengths. The Act has helped to raise 
awareness within those countries in which Ahmadi Muslims, and 
indeed all religious minorities, face persecution, as well as 
in the United States, where organizations like the U.S. 
Commission for International Religious Freedom under the able 
leadership of Dr. Swett and The Becket Fund for Religious 
Liberty has advocated for the release of Ahmadi Muslim 
prisoners of conscience and the protection of their rights to 
practice their faith freely, and without fear of government or 
extremist reprisal.
    My second main points relates to the underappreciated role 
of the IRFA in enhancing our national security. Today, violent 
extremism is perhaps the central threat to U.S. national 
security, both at home and our embassies and military 
installations abroad. And while terrorism has nothing to do 
with religion, those who carry out these acts are often 
brainwashed into believing that they somehow serve a religious 
purpose. This is true for terrorists everywhere who rely on 
religious justification.
    As it relates to the Islamic world, by enhancing the 
freedom of minority sects and protecting scholars at risk, the 
IRFA can help restore pluralism to Muslim-majority countries. 
By virtue of the Act, the ulema, the scholars, who support acts 
of violence can be challenged not just on moral grounds, but 
based on international human rights principles that are 
consistent with Islamic law, thus removing misconceptions from 
the mass public that have persisted, unchecked, for decades.
    Having noted some of the IRFA's benefits and strengths, 
both intrinsically and in the struggle against violent 
extremism, I now wish to bring to the committee's attention my 
final main point: ways in which this Act can be strengthened, 
not just to further its core purpose, but to help save lives, 
to help other nations establish their own religious freedoms, 
and perhaps one day make the Act itself unnecessary. I note 
five areas of improvement.
    The first area of improvement relates to information flow 
and content at the U.S. State Department's various bureaus and 
embassies and consulates. Despite our ever-readiness to provide 
information to the Department, its written correspondence is 
sometimes wrought with errors concerning the persecution cases 
with which it deals. Some of this must be attributed to unclear 
information on the ground but, simply put, the political 
officers assigned to the International Religious Freedom 
portfolio, often first-and second-tour professionals, must be 
given more training and emphasis on this subject. Their 
training should include more practical procedural instruction 
so that all officers, irrespective of cone or assignment, are 
able to advocate for human rights and religious freedom, and 
understand how to interact with religious communities' 
representatives in the United States, gather information in the 
host countries, and take action.
    The second area of improvement relates to responsiveness. 
Desk officers, regional bureaus, and overseas posts are 
sometimes non-responsive for long stretches of time to acute 
requests for assistance in countries that have seen the worst 
violations of international religious freedom. For example, 
despite briefings by our community, the U.S. Embassy in Saudi 
Arabia has provided only limited assistance and support 
relating to the release of two Saudi nationals and Ahmadi 
Muslim prisoners of conscience, who I am sad to report are 
still languishing in jail, without charge, for more than one 
year, and this despite a law on the books capping such 
confinement to six months. So while our community fully 
appreciates the tremendous strain and workload placed on 
embassies abroad, I believe a greater level of responsiveness 
to the concerns of vulnerable religious communities can go a 
long way in achieving U.S. engagement on acute issues of 
religious persecution.
    The third area of improvement relates to prioritization. 
International religious freedom, despite being a portfolio 
item, usually takes a back seat to security, democratization, 
and even economic issues like energy security. The tragic 
events of 9/11 have taught us that we must make human rights 
and religious freedom a tier one issue in countries that we dub 
state sponsors of terrorism. Only when we break the hold of 
religious domination by extremist clerics will there be a 
viable opposition or alternative for the massages in those 
countries. Consistent with U.S. law and policy, under the 
current Leahy Process, the State Department vets its assistance 
to foreign security forces to ensure that recipients have not 
committed gross human rights abuses. When the vetting process 
uncovers credible information that an individual has committed 
a gross violation of human rights, U.S. assistance is withheld. 
It is unclear whether violations of international religious 
freedom constitute a gross violation of human rights for 
purposes of the Leahy Process, but, in my view and 
recommendation, they should.
    Let me briefly touch on the final two areas.
    The fourth area of improvement relates to feedback and the 
need for a feedback loop and admin and enhanced communications 
that could be made with a concerned community upon the release 
of a country's report.
    The final area of improvement relates to structure. 
Currently, the Ambassador at Large for International Religious 
Freedom has not been vested with the necessary authority and, 
as has been covered here by other witnesses, must be empowered 
to directly assist with the implementation of recommendations 
related to the persecution of international religious freedom.
    In conclusion, let me say that the primary source of our 
community's persecution is religious extremists who espouse a 
militant perversion of Islam. Our community strongly believes 
that all such religious extremism must be cut at its root, and 
we welcome all and any and all efforts by the U.S. Government 
to redress global restrictions to international religious 
freedom. The IRFA provides vital safeguards to protect a 
fundamental universal human right, and while we wholeheartedly 
support the Act, we hope that Congress urgently improves upon 
its limitations and shortcomings in a manner that strengthens 
the Act's original mandate. Our community stands ready to 
assist in this process.
    Thank you very much.
    [Prepared statement of Mr. Amjad follows:]

    [GRAPHIC] [TIFF OMITTED] T2139.033
    
    [GRAPHIC] [TIFF OMITTED] T2139.034
    
    [GRAPHIC] [TIFF OMITTED] T2139.035
    
    [GRAPHIC] [TIFF OMITTED] T2139.036
    
    [GRAPHIC] [TIFF OMITTED] T2139.037
    
    Mrs. Lummis. [Presiding.] I thank the gentleman and would 
like to recognize Dr. Seiple. Now, did I pronounce that 
correctly?
    Mr. Seiple. Yes, you did, ma'am.
    Mrs. Lummis. You are recognized. Thank you for joining us.

                STATEMENT OF CHRIS SEIPLE, PH.D.

    Mr. Seiple. Thank you, Madam Chair. Thank you, members, for 
the opportunity to speak with you. And thank you to my 
panelists for the presentations they have made.
    I respectfully request that my statement be included in the 
record.
    I would like to take a little bit broader approach and 
think about where we have been in order to think about where we 
probably need to go.
    This week, and this month in particular, remind us of the 
best and the worst of our own history. Three hundred twenty-one 
years ago witches were hung in Salem because they dared to 
differ with the majority culture in their beliefs or their 
behavior. Of course, in that same great State of Massachusetts 
Bay Colony, Quakers had been hung 32 years earlier. A guy by 
the name of Roger Williams fled that, anticipating that tyranny 
of a majority culture and only being allowed to worship one 
way, and went to Rhode Island. I have lived in both States; 
they are both good places.
    But this is the important point: Roger Williams created a 
space where Quakers and Jews and Baptists and Native Americans, 
whom he paid for the land, could live together from the bottom 
up. Then his genius was to institutionalize that in the Rhode 
Island Colonial Charter of 1663 and intentionally link 
religious freedom to the civility of a society and the 
stability of the State. In other words, if you repress people, 
you are going to make them mad and they are going to agitate 
against the State, and that is bad for the home team.
    Now, two facts kind of drive everything I think that we 
need to think about. One is that 84 percent of the world 
believes in something greater than themselves. Eighty-four 
percent. You can't put it in a category. You can't put it in a 
committee. It is everywhere. And the other fact, which has 
already been mentioned, is 75 percent of the world faces 
restrictions on their capacity to exercise their freedom of 
conscience or belief. Seventy-five percent of the world.
    Which is also to say that we are discussing various issues 
about our own Act, but the situation has gotten worse in 15 
years, and it is getting worse. Which is to say we are all to 
blame. We need to think about how we work together, government 
and grassroots, top-down and bottom-up, non-government, all on 
the same panel, all on the same sphere, trying to make things 
better, because it is in our national interest and it is the 
right thing to do.
    So I would like to make five comments about where we might 
go in the future, fully aware that there are many good things 
that have happened since the passage of the Act, to include the 
establishment of a standard and that we are a voice for the 
voiceless worldwide. That did not exist before the Act and we 
should not make light of that as we self-critique, as we are 
very good at in this Country. So here are five things to think 
about as we think about the future.
    One is we have to think through what we mean by religious 
freedom and what we mean by religious engagement. Our combatant 
commands, our chaplains, our military, our intelligence 
community, pick a U.S. governmental agency, they have to deal 
with religion, they have to engage the world as it is. How are 
they being trained to think about this issue? So I think we 
need a focal point for religious engagement, a focal point that 
focuses on the broader issue of working with and partnering 
with religious communities worldwide to demonstrate how they 
contribute to the common good and the stability of the state, 
which in turn would free up the religious freedom office to be 
just that, religious freedom, and not be a catchall for 
everything religious, because there are no places in our 
Government where people can come and talk about the religious 
issues. That is number one.
    Second, I think we need a global religious engagement 
strategy of some kind to be incorporated into the national 
security strategy. Such a strategy would address this broader 
picture and, at the same time, accelerate and accentuate the 
capacity to focus on religious freedom in its own context, as 
opposed, again, to it being a catchall for all things.
    Third, we need education and training for the entire U.S. 
Government personnel on this issue. It starts at State 
Department, it starts at the Foreign Service Institute but, 
like I said, it is not just the Foreign Service officers. There 
are a lot of braves ones going outside the view from the 
embassy window, but there are also a lot of brave folks in DOD 
and the intelligence community, and they have to think through 
these things. And often it is the case that the best of faith 
will defeat the worst of religion, and we have to think that 
through and how that works, and build the relationships 
necessary to do it.
    Fourth, the GAO report has been highlighted. We have to 
give attention to that, especially the decreasing size of the 
Office of International Religious Freedom and the fact that an 
ambassador at large reports to a deputy assistant secretary. 
That is not in keeping with the Act. That is not good for our 
Country. That is not good for the voiceless overseas. It is not 
good for our national security.
    And then, last, we need to think about new ways of 
partnering together. I happen to be the senior advisor to the 
Secretary of State in a pro bono, unpaid position in the 
Religion Foreign Policy Working Group, and the top-down of our 
Government has invited civil society bottom-up speaking into 
how U.S. foreign policy is formed and informed. That is 
unprecedented. That is exactly the nature of the times that we 
live in. I also co-chair a religious freedom roundtable that 
meets every two months here on Capitol Hill. Our next big event 
is 27 June. We would love to have some of you all speak. But 
that is the bottom-up inviting the top-down in, and that is the 
nature of the world that we live in. Top-down, bottom-up, 
government and grassroots have to work together or no change is 
sustainable. So that kind of model can be replicated.
    And the last thing that I might say in summary is this: 
maybe it is time to think about a global religious engagement 
act that clarifies roles and responsibilities and expectations 
for U.S. agencies regarding the engagement of religious 
communities and religious issues worldwide, and, therefore, 
further strengthens the role that the Office of Religious 
Freedom can play at the State Department.
    Thank you for your time.
    [Prepared statement of Mr. Seiple follows:]

    [GRAPHIC] [TIFF OMITTED] T2139.038
    
    [GRAPHIC] [TIFF OMITTED] T2139.039
    
    [GRAPHIC] [TIFF OMITTED] T2139.040
    
    [GRAPHIC] [TIFF OMITTED] T2139.041
    
    [GRAPHIC] [TIFF OMITTED] T2139.042
    
    [GRAPHIC] [TIFF OMITTED] T2139.043
    
    [GRAPHIC] [TIFF OMITTED] T2139.044
    
    [GRAPHIC] [TIFF OMITTED] T2139.045
    
    Mrs. Lummis. I thank the gentleman and the entire panel for 
your testimony today. Deeply appreciate your presence and want 
to register my regret that the witness from the State 
Department, Ambassador Johnson Cook has left an empty chair 
here today. I do thank all the witnesses and now will yield to 
our first set of questions, which will be asked by the 
gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Madam Chair. I too 
would like to express my regret about the ambassador not being 
here to testify, especially when the State Department has 
asserted a policy or hidden behind a policy that they have not 
applied in several other instances, as Chairman Chaffetz 
pointed out in his opening statement.
    But the question that I have relates to something that 
happened last week. Last week, an Egyptian court sentenced 43 
staff members of pro-democracy, nongovernmental organizations, 
including 16 Americans, to prison terms of up to five years for 
their activities to support civil society and democracy. One of 
those 16 Americans is the son of Secretary of Transportation, 
Ray LaHood. And what I am wondering about is this: Some people 
don't like to admit this or point this out, but our direct 
foreign aid is a small part of the budget. It amounts to many 
billions, so it is important, but about half of what the 
Defense Department spends in other countries is just really 
pure foreign aid. We do most of our foreign aid through the 
Defense Department; it is not called foreign aid. We do aid 
through almost every department and agency in the Federal 
Government in other countries. So we are spending many, many, 
many billions in other countries each year.
    And I would like to know if the witnesses feel that we 
should, in some way, tell these countries that are rated as 
CPCs or are clear violators of religious freedom, that we 
should tell these other countries that we may have to start 
reducing not only our direct foreign aid, but even, more 
importantly, all the aid that we are doing through all these 
other departments and agencies in the Federal Government. I 
would like to know if any of you have any comments about that. 
Yes.
    Ms. Ramirez. Thank you, Mr. Duncan. Just in response 
briefly to the situation in Egypt. I actually worked for 
Congressman Bilirakis and one of his former employees was also 
involved in the situation there, and I don't know if he was one 
of the 43 convicted, but he was one of the people that were 
held a couple years ago. So the situation is very dire in 
Egypt, and what happened when the government allowed the 
conviction of those 43 NGO workers, many of them American NGO 
workers, as well a number of NGOs, is that it sent the message 
that there is an authoritarian policy in Egypt that is 
essentially going to run underground all the civil society 
organizations that are necessary to sustain democracy there.
    So it is extremely unfortunate that just last week, while 
this was happening, we also waived any conditionality on the 
aid that we are providing Egypt. The U.S. Government has 
provided Egypt billions of dollars in aid over the last 30 
years, and when Congressman Obey, who was chair of the 
Appropriations Committee at the time, tried to condition that 
aid on the basis of human rights and a number of other issues, 
the Egyptian government actually did respond favorably and they 
began to address some of the problems along the border of the 
Gaza Strip.
    So we know that just by conditioning aid, we are not going 
to lose an ally. It would be naive of us to think that. The 
fact is that history shows they have actually paid attention 
when we condition our aid.
    The other fact is that this is not the Egyptian 
government's money, as they often like to think it is. Aid is 
the American taxpayers' money, and they have a right to know 
that that money is not being used, whether it is supposedly for 
military or being subverted to the security apparatus, which 
has always happened in Egypt, to basically suppress the 
population when we have a policy that prioritizes religious 
freedom as a fundamental human right, not a negotiable one.
    Mr. Duncan. Well, thank you. The Heritage Foundation, just 
yesterday, issued a report calling for a freezing of U.S. aid 
to Egypt in response to this situation that I talked about, and 
what it seems to me is we should at least consider doing this 
to countries that aren't doing anything to increase religious 
freedom.
    Dr. Swett?
    Ms. Lantos Swett. I just want to echo some of those 
comments, and I think we need to absorb the fact that it sends 
an extraordinarily negative message when we do not respond with 
some sort of conditionality on aid when this kind of really 
egregious behavior occurs. I also agree that it does not and 
will not derail our necessary relations with countries when we 
act in that way. But at the end of the day that is really a 
decision for the Congress. I mean, this is where the Congress 
has to act to hold any administration's feet to the fire in 
terms of how that aid is to be handled. But I think, as a 
general principle and policy, the notion that there should be 
no strings attached and that there should be no conditions for 
aid that is provided by the United States Government when 
actions that are in clear violation of our most fundamental 
principles and our own national interest is just an unwise 
policy.
    Mr. Duncan. My time is up, but I do want to say this: This 
is my 25th year, and your father was mentioned several times, 
but I see your husband sitting out there too, and he also was a 
very respected member of Congress. I don't want to leave him 
out.
    Ms. Lantos Swett. Thank you so much.
    Mr. Duncan. Dr. Farr wants to say something.
    Mr. Farr. Could I, briefly?
    Mr. Duncan. Yes.
    Mr. Farr. First, Egypt has never been a country of 
particular concern in 15 years. I believe the Commission has 
recommended that it be placed on the list. I would note that 
prior to the Arab Spring Egypt was ranked by the Pew studies as 
one of the worst, if not the worst, country in the world. This 
was under Mubarak. It will be interesting to see, next week, 
when the next Pew report comes out, where the Arab Spring Egypt 
stands.
    Second, in 15 years we have levied economic sanctions 
against only one country that had been on all the 15 lists, and 
that was poor, old Eritrea, where things have gotten worse as a 
result of those sanctions, not better.
    We should condition aid in Egypt and these other countries, 
in my view. We should do this creatively. I think to go to the 
point you raised, Mr. Duncan, this will strengthen civil 
society.
    And this is my final point: We need to do more than throw 
these CPC lists out. We need not only to condition the money, 
but we need to strengthen those in Egypt who already stand for 
religious freedom. We need to stand with them and provide 
opportunities for them to speak out, and that is another place, 
in my view, we are failing.
    Mr. Duncan. Thank you.
    Mrs. Lummis. I thank the gentleman and yield to the 
gentlelady from California, Ms. Speier.
    Ms. Speier. Madam Chair, thank you.
    Let me officially welcome former Congressman Dick Swett to 
this hearing today. It is great to have you here as well.
    Let me say to each of you as panelists you have truly been 
eloquent this morning. We have hearings in this committee two 
or three times a week, and I don't know that we have ever heard 
from a group of people that were more articulate and compelling 
than you, so thank you very much for your comments today.
    I might also add that every time we have a hearing there is 
an issue raised. Sometimes it is about the IRS and their 
conferences, or the General Services Administration, or the 
fact that we have contractors that don't pay their taxes; and 
typically what we find out is that we do have rules on the 
books, but we tend to waive them. We had a hearing this week on 
suspension and debarment. But as it turns out, as tough as we 
have these rules on the books, we don't use them. Or when we do 
suspend, as we have on occasion, with big defense contractors, 
we then waive it because they are the only contractor that can 
do the work.
    So I don't want you to feel that somehow you are the only 
group of people who have come here to make the case about laws 
that we have on the books that we somehow ignore. It is, 
unfortunately, a consistency around here that is, I think, very 
troubling and something this committee should spend more time 
on.
    You have all talked in varying ways about a number of 
issues that need to be fixed. One is the structure, the fact 
that the ambassador at large function does not really exist, 
that it is a reporting-to function. You have talked about a 
lack of communication and you have talked about the need for 
training.
    I would think that if we attempted just one of those areas 
and really honed in on that, that we could make some dramatic 
changes. I mean, to have this law on the books for as long as 
it has been on the books, and this is the first hearing that 
has been held, is deeply troubling to me, and I am sure it is 
to you as well.
    So I guess what my question would be to each of you is: If 
there was one thing we could tackle and really fix, what would 
be your highest priority?
    Let's start with you, Dr. Swett.
    Mr. Seiple. Thank you, ma'am. Education and training.
    Ms. Speier. Education and training?
    Mr. Seiple. Education and training. You don't change 
behavior in our own Government, or other places, unless you 
change the mind-set.
    Ms. Speier. All right.
    Mr. Seiple. And people have to be integrated. Goldwater-
Nichols, 1986, the Congress dictated, top-down, that the four 
services would get along and be educated and trained together. 
I am a product of that out of the Naval Post Graduate School, 
and I don't think of the U.S. Army as the Army dogs anymore, 
because I am just a jarhead. We are on the same team fighting 
the same way, and that is because I was in the classroom 
together and I was exposed to think critically and holistically 
about all issues; and we need something like a Goldwater-
Nichols for the entire inner agency that it brings in issues 
like religious engagement and religious freedom, because it has 
been totally ignored, and everything happens by happenstance as 
a result.
    Ms. Speier. Thank you.
    Mr. Amjad?
    Mr. Amjad. Thank you. Each of the areas you highlight I 
tried to touch on in my presentation, and I certainly would 
agree that probably the most low-hanging fruit, if you will, is 
probably responsiveness and information flow. There are other 
areas, such as ultimately prioritization, that I think will 
have to be addressed, but in terms of ensuring that concerns 
are addressed on a timely basis and that the folks who are in 
charge of addressing them are adequately trained and understand 
the nuances that go into these very complex issues I think is 
absolutely critical.
    To touch briefly on something that was discussed a moment 
ago about Egypt and other countries in the Arab Spring, one 
thing we have noticed as a community is that as the hopes of 
the Arab Spring are clear to us, as evident are the perils of 
the forces that are rising that may bring freedom for 
themselves but may, in the process, seek to silence freedom for 
others, including minority groups such as our community. We 
have, as I discussed during my remarks, active cases in Saudi 
Arabia, we have cases in Lybia; we have had cases historically 
in Egypt, in the UAE. There are many countries around the Arab 
world where the forces that are rising up we have to monitor 
very closely to ensure that they do not use the rise of a 
religious tide as a way to silence those who may hold different 
views from themselves.
    Ms. Speier. My time is about to expire, but I would like to 
get to each of you.
    Ms. Ramirez?
    Ms. Ramirez. I will be brief. What I would say is what I 
had said during my statement earlier, that the U.S. should 
initiate a U.N. decade for religious freedom, and part of that 
should be that instead of just reporting on countries, we 
should actually use that report to develop, with the U.N., 
strategic comprehensive strategies to have incremental advances 
in laws and policies in countries all over the world.
    Mr. Farr. Three quick points. Whatever you do, don't do it 
informally; amend the law and make it clear. The law already 
says the State Department is supposed to be training Foreign 
Service officers. Fifteen years later it is not happening. Make 
it mandatory, and I suggested three areas where it should be 
mandatory.
    And I agree with what Chris said, but I would say the top 
priority would be to give the Ambassador at Large the status, 
and the resources, but the status to make the argument within 
the administration, any administration, within any State 
Department. We don't have a senior official in the foreign 
policy establishment who has the status to make arguments on 
behalf of this. Imagine what would happen if that person did. 
It is, to me, obvious that this is a very important and every 
easy fix to make to the IRFA.
    Ms. Lantos Swett. I won't echo what my colleagues have 
already said, but I think there is a deeper way in which this 
has to be addressed, and that is that religious freedom must 
become a key priority of American foreign policy. I look back 
at the way in which human rights more broadly became embedded 
in our U.S. foreign policy; it started in the Congress. There 
was a movement, there was a passage of the law that, for the 
first time in any nation's history, designated human rights, 
the promotion of human rights as a principal goal of U.S. 
foreign policy. That is where it started, and the legal 
structure was created and then a president came along, Jimmy 
Carter, who sort of raised high that standard and really 
adopted that with a passion, and it became sort of a road from 
which we couldn't turn back.
    We have never yet reached that critical mass with religious 
freedom, and it is truly the first freedom. The whole range of 
other human rights flow from this fundamental protection of 
religious freedom, conscience, and belief. So at the end of the 
day all of these fixes can only go so far until and unless we 
get the sort of impassioned congressional leadership on this 
issue that then inspires an administration to raise that banner 
high and not have religious freedom remain the poor cousin, you 
know, the sort of shunted off, in the corner, every now and 
then a few rhetorical flourishes are thrown out, but it is not 
truly integrated.
    And it is increasingly implicated in our national security 
challenges. Look at every country that poses a serious threat 
to our Nation. They all are huge religious freedom violators 
and abusers; they are hotbeds of extremism, which translates 
into terrorism. So it is not just nice feel good stuff, it is 
are we going to be safe as a Country.
    Ms. Speier. Madam Chair, thank you for letting me exceed my 
time.
    Mrs. Lummis. The Chair is being very generous with the 
clock, but we have, as you have mentioned, a very distinguished 
panel of witnesses, and we appreciate their advice and counsel 
today.
    The chair now yields to the gentleman from South Carolina, 
Mr. Gowdy.
    Mr. Gowdy. Thank you, Madam Chairwoman. I want to thank you 
and I want to thank Chairman Chaffetz and I want to thank my 
colleagues, frankly on both sides of the aisle, for having this 
hearing. It is stunning to me, Dr. Farr, that this would be the 
first oversight hearing. When I think about some other hearing 
titles that I have experienced in the last two-plus years, it 
is stunning.
    So I commend you, Madam Chairwoman, Chairman Chaffetz, and 
colleagues on both sides of the aisle, because this is an issue 
of great importance to the people that I work for in South 
Carolina, one of whom has traveled the whole way from South 
Carolina to be here today, John Hutchison and others in my 
district care as much about this issue as they do any other 
issue.
    And how we interact, frankly, Madam Chairwoman, with 
countries that discriminate or persecute on the basis of 
religion or access to education or gender, frankly, says as 
much about us as it does about them.
    So, Dr. Farr, I want to start by asking you this. And I 
think I know the answer, but I would rather you give it to me. 
Why would the most powerful country on the planet be reluctant 
to cite Egypt, hypothetically, or Saudi Arabia, hypothetically, 
as a CPC when the evidence dictates that it should be cited as 
such? What is the reluctance?
    Mr. Farr. Well, it is a good question, Mr. Gowdy. I think 
there are two answers. Of course, the honest answer is I can't 
be sure. I think I know. I will tell you what I think. In the 
first place, I suspect there are those in the Administration, 
in fact, I know there are those in the Administration, arguing 
that this kind of sanctioning because of religious freedom is 
beside the point; we have bigger fish to fry; we can't 
condition our aid on something as unimportant as religious 
freedom.
    Now, as the chairman said earlier, it is important that we 
all acknowledge that religious freedom isn't the only issue we 
have with any of these countries, including Egypt. There does 
have to be some balancing of American priorities. But the 
striking thing is that this is just not there as a priority; it 
isn't looked at as a priority.
    So the second thing I would say in answer to your question 
is that some of this is just, rather than hostility, it is 
indifference; it is that the issue doesn't come up in our 
senior policy circles, which is one reason why we need an 
Ambassador-at-Large with the status and authority to be present 
at these senior meetings within the State Department and within 
any given administration to make the case for religious 
freedom, which is not, as I said in my remarks, not just 
special pleading for religious people, it is about the whole 
country of Egypt and its stability, its civil society, its 
nourishing of extremism. Remember that Osama Bin Laden and 
others were members of the Muslim Brotherhood at one time. I 
mean, these ideas are important in Egypt and in much of the 
Middle East. So advancing religious freedom there is a very, 
very important national security issue for the United States, 
so we need somebody in the administration to make that case. 
Nobody is doing it.
    Mr. Gowdy. Well, I hear these phrases like American values 
and who we are as a people, and there just seems to be a 
disconnect between our purported American values and whether or 
not it is echoed with our policy decisions. So I want you to do 
this for me: You have a South Carolina connection. I want you 
to assume that the voters in my district were to wise up and 
elect you and kick me out, and that you were sitting up here 
next term of Congress. Specifically what are the first three 
things you would do if you were sitting here instead of sitting 
there?
    Mr. Farr. Well, I would apologize to the people of South 
Carolina, first, congressman.
    [Laughter.]
    Mr. Farr. Especially those I know from your district, 
namely my family and others.
    Three things. The first thing I would do is ask Congress, 
work with other members of Congress that care deeply about this 
issue to get Congress involved on both houses much more 
energetically on the issue of religious freedom; calling 
hearings, making speeches, talking about this issue as a 
national security issue as well as an issue of our values. So 
the first answer is Congress, pay attention to this. I mean, 
the fact that there has been no hearing in 15 years is a 
congressional issue.
    The second thing I would do is amend the International 
Religious Freedom Act quite concretely. Some of the stuff is 
new that we said; some of it is tightening up language that 
already exists. As I have said, training is already there in 
the IRFA; thou shalt train. Well, you know, it depends on what 
that means. In some definitions of it, I suppose the State 
Department is training, but they are just doing it 
halfheartedly and on an ad hoc basis. So amend the IRFA, 
tighten it up and get a bipartisan approach to getting that 
done.
    Finally, I would ask members of Congress to speak out in 
their personal roles on the importance of the first freedom. I 
really think this is a bipartisan issue. The first freedom 
doesn't just mean, as the chairman said, this is the first 
thing in the First Amendment; it is because the people of South 
Carolina and, frankly, the people of every State in this Union 
deeply believe in the value of religious freedom; not just a 
special pleading, because I am a Baptist or a Muslim or an 
Ahmadiyya, but because it is good for this Country, and 
including non-religious people. And I would love to hear more 
people speak out about this because I think it is important.
    Mr. Gowdy. Madam Chairwoman, my time is up, but I do want 
to thank all of the witnesses for living out the first American 
value and doing a better job, the five of you, than we, or I 
should say I, have done. So thank you.
    Mrs. Lummis. I thank the gentleman and will now yield to 
the gentlelady from Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Madam Chairman.
    Thank you to the witnesses for being here today. A couple 
times now people have talked about the training that is 
necessary, and I am interested, by any of you, how would you 
improve the training? What specific things do you think should 
be included in the training?
    Ms. Lantos Swett. I will just jump in. I think the first 
thing is to make it mandatory, and not optional. Dr. Farr is 
involved, as he said, and participates in the training that is 
currently available, so he can speak more directly to how that 
curriculum perhaps should be tightened up, but making it 
mandatory. I want to once again reiterate how important it is 
that the issue of religious freedom not be cast as sort of a 
nice, feel good, sort of soft thing, that because it sounds 
like a laudable goal to pursue, we want to say nice things 
about it. It is implicated in our national security. It is 
implicated in the caliber of life that people living in these 
societies have.
    The Pew studies have been mentioned several times today. 
One thing that I don't think was mentioned is that there is an 
extraordinary and compelling correlation that the Pew study 
shows between societies that do a good job of robustly 
protecting religious freedom and the levels of stability, the 
status of women in those societies, their economic welfare, and 
a whole host of criteria, whole host of desirable outcomes that 
we want to see in other countries, they correlate with the 
robust protection of religious freedom. So, in a way, recasting 
religious freedom as one of our hard targets, not a soft 
target, I think is critically important, because it is easy to 
sideline the extras, the frosting on the top, the things that 
just make us feel good. When our State Department, when our 
Congress, when our Country comes to see religious freedom as 
one of our hard goals, then I think we are going to see the 
sort of focus and the sort of resources and the sort of 
prioritization that really is critical.
    Ms. Kelly. Thank you.
    Ms. Ramirez. Congresswoman, if I could just add to that. 
Recently I developed two different training manuals on 
international religious freedom and provided training abroad to 
civil society government officials, and the Department of 
Justice is actually working with civil society and foreign 
governments with some of those materials. So I think there are 
three main objectives that I would provide. One is that the 
State Department officials need to understand the benefits, 
which Mrs. Lantos Swett had suggested as well.
    They also need to understand what the law says. It is one 
thing to educate people on religious tolerance, etcetera; it is 
another thing to tell them this is an international legal 
standard that we are accountable to under international 
covenants on civil and political rights. And regardless of 
whether countries have signed that or not, it is already 
established as an international norm jus cogens, a norm that 
can't be derogated from, so it is a standard of international 
law, and our Foreign Service officers should understand that 
and be able to articulate it.
    And then, third, one of the problems that I found, which 
Mahmood had explained, was that there is a lot of bias in our 
State Department officials and embassies around the world. We 
have had a number of problems with visas, with people going in 
of different faith communities or ethnic backgrounds that are 
discriminated against in getting visas, and a lot of that comes 
from a bias against religious or ethnic communities. So I think 
that they need to recognize their own bias in order to be able 
to really treat people under the international standard of 
religious freedom.
    Ms. Kelly. Thank you.
    Mr. Seiple. May I add one thing, please, Madam Chair? Thank 
you.
    We do this kind of training all around the world, religion 
rule of law, religion security and citizenship, and then I have 
also participated in the FSI, Foreign Service Institute, 
courses here, and two things stand out to me in terms of how to 
think about it. One big thing: you have to give people 
permission to participate. Often there is a cultural or a 
religious or some kind of obstacle that sometimes is even 
subconscious that says I can't talk about this. In our own 
culture, we all know good people don't talk about religion and 
politics in polite company, assuming you keep polite company, 
right? So to hear the two things that help in our culture give 
permission, but I have also found it useful overseas. One is 
you have to be able to place it in a broader context, and for 
me that is the art of grand strategy and recognizing that you 
have to bring all elements of national power, hard and soft, 
government and non-government, together to preserve peace. 
Religious freedom is preemptive peace if we implement it 
correctly.
    The second element is this: we have to known our own 
history. That is why I opened my remarks with Rhode Island 
versus Massachusetts. It is not some touchy-feely, 
Thanksgiving, big buckles on your shoes experience that we all 
talk about and don't know anything about; it is a very 
practical thing. There were no witches or Quakers hung in Rhode 
Island because they were not seen as a minority threat to the 
majority culture and the stability of that State, because they 
talked about things in public. So we have to know our own 
history. And then as we relate to others what it is in their 
history so we can come alongside the best of who they are, 
because nobody wants to be tolerated, they want to be 
respected; and they don't want to be known as the homeland of 
terrorism or oppression, and there are good people in bad 
places who are willing to partner with us, but we have to be 
able to relate to them in that kind of way.
    Ms. Kelly. Thank you.
    Madam Chair, I know Dr. Farr wanted to add, if we can 
indulge him.
    Mrs. Lummis. Please do, Dr. Farr.
    Mr. Farr. Thank you so much.
    Ms. Kelly, thanks for asking that question.
    Quick points. One, don't write a letter, amend the IRFA. 
Two, make it mandatory, as Dr. Lantos Swett suggested. Three, 
this needs to occur throughout a Foreign Service career. Most 
FSOs serve 20, 30 years. I was honored to serve for 21 years. 
You can't just have one course. So you should do it at the 
beginning, when you come in, so-called A100 course, and then 
during the area studies courses that each Foreign Service 
officer has before they go out to post that tells them what is 
going on in that particular area of the world. And then when 
they become very senior, deputy chiefs of mission and 
ambassadors, they hear this again.
    The content is important. Dr. Lantos Swett mentioned this. 
Basically, why is this important to our Country and how do you 
do it? Chris Seiple's outfit does this, my Religious Freedom 
Project at the Berkley Center at Georgetown is developing 
materials that can be used in such a course. So this isn't 
rocket science, it is something our Country has been doing 
pretty well for a long time. Our foreign policy should do it 
better than it is doing.
    Ms. Kelly. Thank you.
    Thank you, Madam Chair.
    Mrs. Lummis. I thank the gentlelady and now yield to the 
gentleman from Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you, Madam Chair.
    Thank you, ladies and gentlemen, for appearing here today. 
I was really looking forward to this. And I have probably more 
questions than five minutes would cover, but I am going to 
start out.
    Basically, in light of recent events, the IRS scandal, 
monitoring journalists' phone records, the NSA collecting 
metadata on American citizens, not to mention the massive 
Obamacare coming to bear on us, the Administration seems intent 
on monitoring and controlling every aspect of our lives, while 
ignoring our most basic freedoms. This again is exhibited by 
the Administration's refusal to elevate the role of 
international religious freedom in its foreign policy. The 
issue of religious freedom is one that matters greatly to me.
    The Constitution of the United States guarantees this right 
and is one of the cornerstones of this great Nation. The fact 
that a majority of the people in this world face persecution 
and oppression because of their faith is something that should 
offend every American. It is a right that I believe should be 
afforded to every person, regardless of their nationality or 
religion, so long as that faith does not harm or infringe on 
the rights of other people. Religion should not be used as a 
weapon, nor should it be considered a crime.
    But listening here today, I heard Mr. Duncan, who seems to 
have a solution to a problem, and I would like to explore that 
with you and get your opinion on kind foreign aid to a rating 
system I think is run or something the State Department already 
has or this organization already has to foreign aid. Is that 
something that you have kicked around? Have you thought about 
it? I would like your opinions on that.
    Ms. Lantos Swett. Well, under the IRFA Act, when a country 
is designated as a CPC, a country of particular concern, and 
those are countries that meet a pretty tough standard. The 
religious freedom violations have to be systematic, ongoing, 
and egregious, so it is really sort of embedded in that 
society. Then the Secretary of State and the Administration is 
entitled to proceed with sanctions of a variety of sorts, and 
one of our criticisms as a commission, and this extends back 
prior to the current Administration, so we have been sort of 
equal opportunity critics of various administrations, is that 
none of them have used the tools that IRFA provides to try and 
actually bring about change.
    You know, there are examples, I think Saudi Arabia was 
mentioned, of a country that has been designated as a CPC, but 
all sanctions and all consequences flowing from that have been 
waived for other countervailing reasons. So I would say that 
from USCIRF's perspective we would strongly encourage this 
Administration, future administrations, and have been critical 
of past administrations for not using the tools that are 
already there.
    And specifically as to the question of conditioning foreign 
aid on meeting certain standards as they relate to religious 
freedom, I would certainly say that that should be on the 
table. It is a way of bringing about a change in conduct. You 
know, the point of exercising that sort of leverage is to 
achieve positive change for that society, and the positive 
change in that society, Egypt would be a good example, redounds 
to our benefit, meets our security concerns and our goals as a 
Country as well. But at the end of the day it helps change 
Egypt for the better.
    If I could just indulge in a little walk down Memory Lane, 
when my father, Congressman Lantos, served in the Congress many 
years ago, he proposed taking a small portion of our annual aid 
to Egypt, I think it was $150 million, perhaps, and devoting 
it--this was under Mubarak--to strengthen civil society groups, 
to strengthen human rights organizations, both to help them and 
to send the message; and, of course, it was opposed by the 
State Department at that time, opposed by the Administration at 
that time, and I don't think he was successful. But we saw, I 
think, in the aftermath of the Arab Spring, how wise that 
policy would have been, to say to somebody who was an ally, but 
was a repressive dictator at the same time, you have to begin 
to change and we are going to take some of the money we give 
you to for other reasons and devote it to these groups as a way 
of sending a message. That was a right approach then. It wasn't 
followed then. I think we need to be open to that sort of 
approach now.
    Mr. Bentivolio. Anybody else? Mr. Farr?
    Mr. Farr. I couldn't agree more with Dr. Lantos Swett. 
There are two things, just to reemphasize what she said. On the 
one hand, there is the negative use of foreign aid, withdrawing 
it or putting some kind of restriction on the aid that we are 
already giving, which I support. I would note that the 
International Religious Freedom Act, as in many other ways, 
makes it possible for the State Department to do something, but 
does not require it; and 15 years later we can see what that 
has meant. It rarely, if ever, has happened and has never been 
used effectively.
    But even more important, in my opinion, than the negative 
use of foreign aid is what Mr. Lantos, who I had the honor of 
knowing myself, tried to get the Administration to do, and that 
is to use foreign aid to support civil society, to support 
religious freedom organizations within Egypt and everywhere in 
the world. These people have to have an opportunity to speak up 
for themselves. So it is not only foreign aid, it is also 
putting conditions on our aid to Egypt and these other 
countries to say if you do not let these people speak, we will 
withhold aid from you. We have to create a space for them. That 
is what religious freedom means; it means the opportunity for 
people to speak out. We will never undermine religion-related 
terrorism in the Middle East or anywhere else if we do not 
provide an opportunity for people from within those traditions 
to say the Quran does not require suicide bombing, or the 
inequality of men and men, or the suppression of non-Muslims. 
Those people exist in every one of these societies, but they 
cannot speak out because they will be charged with blasphemy.
    We don't pay the slightest attention to this kind of stuff. 
We do at the international level. I shouldn't say that. The 
Administration has done some pretty good stuff in the United 
Nations, but the United Nations, forgive me, Tina, is not where 
the problem is. The problem is in Afghanistan, Pakistan, Egypt, 
and in these countries.
    So sorry for the long-winded answer, but it is a very 
important question. Thank you.
    Mr. Bentivolio. Thank you.
    Mrs. Lummis. I thank the gentleman and I thank the 
panelists for this extraordinary level of advice. The chair now 
recognizes herself for five minutes to ask some questions that 
are going to take us down a different road. I wanted to allow 
the other members of our dias to ask their questions first, 
because we are talking on the 1,000 to 15,000 foot level about 
policy, and your specific recommendations in that regard are 
deeply appreciated.
    I want to pursue a different course of questioning. It is 
with regard to the way an individual has been treated under 
this law and whether there are times when we either may get it 
wrong or have the opportunity to rehabilitate the status of 
someone who has been targeted under this law. I want to talk 
specifically about Chief Minister Modi of Gujarat Province in 
India.
    India is the world's largest democracy, and Chief Minister 
Modi was denied a visa under this law, continues to be denied a 
visa under this law, when he is now the leader of his political 
party in India and is likely to become a candidate for prime 
minister. In addition, the incident about which he was denied a 
visa was a riot in which it was alleged that he was slow to put 
down the riots, and a disproportionate number of Muslims were 
killed in those riots compared to the rioters who were killed 
who were Hindus.
    Now, somehow that has been converted into egregious 
violations of religious freedom for which he is directly 
responsible, when in fact the press accounts said that he was 
alleged to have been simply non-responsive in a timely manner, 
in the eyes of some, to the riots, which were not organized by 
him.
    Furthermore, the courts in India have not found him to be 
guilty of anything, in spite of numerous court proceedings in 
India regarding his involvement in those activities. The courts 
in India really have no conclusory highest court. Litigation in 
India can go on and on and on, and yet, in spite of almost a 
decade of litigation against Mr. Modi, he has never been found 
guilty of any wrongdoing.
    Therefore, I have some concerns about the application of a 
continuing denial to him of a visa to the United States. Here 
is someone whose province is growing dramatically in its hiring 
of people, in the welfare of their families. We have a gigantic 
Ford Motor Company manufacturing facility going in in Gujarat. 
There is an enormous Tata vehicle assembly facility in Gujarat. 
There are numerous companies moving in because of the economic 
climate and the elevation of the quality of life in terms of 
employment in Gujarat Province. Gujarat Province is the most 
receptive province in all of India to employment, to raising 
the standard of living, and enormous projects to develop their 
water and to develop their infrastructure are going on.
    Now, in light of that decade of history, are we correct to 
continue to deny a specific individual in the largest democracy 
in the world a visa to the United States? I just throw that out 
for the panel.
    Ms. Lantos Swett. Madam Chairman, I apologize in advance 
because I think you probably won't like my answer, so I will 
preface what I am going to say with that. The events that took 
place in Gujarat were very grave and very serious. By some 
accounts, 2500 people were killed during the rioting, and many 
thousands more displaced and injured, and Minister Modi was the 
governor of the province at the time. There is, we feel at 
USCIRF, a considerable cloud that still hangs over his conduct 
during those riots, and some of the recent evidence is more 
recent.
    There have been reports by India's own commission on human 
rights, so the national entity responsible for evaluating the 
state of human rights in India issued quite a critical report 
in which they said that there was responsibility for a failure 
to act to protect on the part of the government officials and 
the police. There is, perhaps most troubling, a sworn affidavit 
from a senior police officer who was part of the police forces 
in Gujarat at the time, who is quoted in that affidavit as 
having Minister Modi say very specifically that the police 
should not intervene to stop the rioting because--and because I 
don't have the actual language in front of me, I am perhaps 
paraphrasing here, but the gist of what he said was that the 
Hindu community had the right to sort of let off steam, and 
that they were angry and agitated at their Muslim neighbors, 
and that the police should not intervene to stop the rioting, 
which was overwhelmingly directed at the Muslim community. 
Finally, the Indian Supreme Court, and you are right, it is not 
completely analogous to our Supreme Court, but they have also 
issued a ruling.
    So I think it is fair to say that there has still been a 
lack of full transparency and accountability. And, you know, as 
someone who believes very passionately that accountability is 
part of how we advance and embed human rights globally as a 
standard to which all countries need to live up to, I am 
reluctant to look at the notable achievements of that province 
under Minister Modi in the economic sphere and say that that 
progress sort of covers or excuses very grave concerns and 
shortcomings as they relate to human rights. So I want to be 
very candid and opening in saying that, last year, USCIRF did 
send a letter, perhaps you have seen it, and I would be happy 
to have it provided to you, to then Secretary Clinton in which 
we did urge the State Department to sort of stand firm in what 
we believe has been a principle position now for a number of 
years.
    But I would also point out that that, in point of fact, as 
far as I know, Minister Modi has not applied for a visa, so it 
is not that he has been preemptively denied one. That is 
something that would only come into play were he to make an 
application for a visa. So in that sense it is not like there 
is an ongoing sanction against him. And, as I said, I am sure 
my answer perhaps is not one that you agree with, but that is, 
I think, the position of USCIRF.
    Mrs. Lummis. Well, I am interested in your position because 
of what I know in terms of the last 10 years in that province. 
Let's assume, now hypothetically, that there is a situation 
where someone has been alleged to have or proven to have been 
involved in an incident that is alleged to have been motivated 
by religion. If there is a period of time, a lengthy of period, 
after which there is no exercise of similar concern, is there a 
point at which the lifting of those kinds of concerns should 
occur?
    Ms. Lantos Swett. Well, as a hypothetical matter, I think 
of an analogy to our own system of justice. We have a statute 
of limitations, certainly, as it relates so that you only have 
a certain period of time in which you can bring a prosecution 
for a past wrong. I mean, I think there is a potential analogy 
there.
    But I am not sure that that analogy would translate into a 
rebuttal of the points I tried to make as it relates to 
Minister Modi because I do think there has to be some 
transparency and accountability, and, again, it is certainly 
the view at USCIRF that the questions and the clouds continue 
to hang over Minister Modi, and I think that there is some 
benefit for that being part of the mix within the Indian 
political environment, that his opponents, should he stand for 
prime minister, this would be something that would be, I am 
sure, debated and discussed within their context.
    Now, clearly, if he were to become the head of state, that 
becomes a different situation; you have to deal with that. Each 
nation, each sovereign nation has the right to choose their own 
head of state. We know that, for example, in Iran, they elected 
as president somebody that we take a rather dim view of in this 
Country for two terms, but you have to sort of contend with 
that reality should it come to pass.
    Mrs. Lummis. Dr. Farr?
    Mr. Farr. This is one of those cases that gives me some 
sympathy for my colleagues at the State Department. You raise 
something we have talked about a little bit today, and that is 
the tension between religious freedom and other American 
interests. I mean, if this guy is going to be the prime 
minister of India, that is something we have to pay very close 
attention to. And you mentioned the economic interests in 
Gujarat. So we have to weigh these.
    I once gave a speech entitled, We Have No Orders to Save 
You. This was from the police report on the Gujarat incident. 
This came from a Human Rights Watch report in which Muslim 
women were surrounded, their houses surrounded, they were 
raped; pregnant women had their babies ripped from their wombs 
by these Hindu mobs and killed in front of them. This was truly 
a horrible religion-based pogrom massacre, and Mr. Modi was the 
guy in charge of those police, at a higher level, no doubt 
about it. So this is a very serious problem.
    But here is where I come out on this, for what it is worth. 
This, for a long time, was the only example that I could give, 
I think this happened in 2006 or somewhere in there, of the 
United States doing anything under the International Religious 
Freedom Act, anything. One visa application pulled. And, to me, 
to put this in larger perspective, the fact that, you know, 
this is the case is simply a function of our irresponsibility 
in the operation of the International Religious Freedom Act.
    So I am sidestepping the issue a little. It is a very, very 
tough one. I guess I would probably come down with the 
Commission on this; I would be very hesitant, given the fact 
that we haven't done anything else in the world to pull what we 
have done on this issue, the symbolism of our allowing this 
would, to me, just be too much.
    Mrs. Lummis. Allowing what?
    Mr. Farr. Allowing Mr. Modi to come to the United States. 
Pulling this visa prohibition, given the fact it is the only 
thing that we have done, or one of the few things that we have 
done under this Act. The symbolism of that I think would be 
very, very bad. If he becomes prime minister, of course, we 
have to look at it.
    Mrs. Lummis. Even though their own courts have not found 
any wrongdoing.
    Mr. Farr. Their courts are notorious for not.
    Ms. Lantos Swett. And I would just weigh in there too. We 
have had very interesting discussions at times about sort of 
rule of law issues in India and they have, in many ways, of 
course, a very legitimate court system, but they themselves 
would say that they are slow and have had challenges in trying 
to address these issues. So I don't think it would be fair to 
say that there has ever been a determination that there was no 
moral culpability on the part of Modi in this matter, and it 
was, as Dr. Farr has so powerfully said, a very terrible, 
terrible circumstance.
    Mrs. Lummis. So we are applying an American religious 
standard, but a non-American legal standard, because in the 
United States you are innocent until proven guilty. But, Dr. 
Lantos Swett, you just said there has been no finding that he 
was not involved.
    Ms. Lantos Swett. Well, the invocation of a legal standard 
is a little bit complicated because, of course, we are in no 
way attempting to impose a legal penalty on Minister Modi, and 
would have no ability to do so. The question is whether or not 
we would extend him the privilege of a visa to visit this 
Country, and I think we do that a lot, impose those sorts of 
moral judgments. The most recent example would certainly be the 
Magnitsky Act, which was passed by Congress late last year, 
which imposes visa restrictions and a freezing of assets on any 
Russian officials we believe to be implicated, not convicted, 
but implicated, in the death of Serge Magnitsky.
    So I think that we, in a sense, comparing apples and 
oranges because we are talking about withholding a privilege, 
the privilege of visiting this Country, not imposing a legal 
penalty. You are right, it would not be consonant with our 
American legal standards to presume a guilt and impose a 
penalty in that sense, but we can say there is enough smoke 
here and enough concerns, and enough red flags, if you will, 
that we are not going to extend this privilege.
    Mrs. Lummis. I do very much appreciate this discussion 
because it does, I think, illustrate the challenges that are 
presented here when we are trying to sort out the appropriate 
application of the Act. It may, as one of you pointed out, help 
illustrate the challenges to the State Department, but I am 
deeply grateful and this committee is deeply grateful for your 
recommendations about how to elevate the intent of Congress and 
of the goals of the Act in a way that is appropriately 
administered in the State Department, and I deeply, deeply 
appreciate, on behalf of this panel, your attendance here 
today. This has been an elevating and wonderful discussion. 
Thank you for your commitment to religious freedom on behalf of 
this entire panel.
    The panel is excused with our gratitude and this hearing is 
concluded.
    [Whereupon, at 11:54 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T2139.046

[GRAPHIC] [TIFF OMITTED] T2139.047

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
